    OFFICE OF INSPECTOR GENERAL


   MANAGEMENT LETTER: AUDIT OF THE
U.S. INTERNATIONAL TRADE COMMISSION’S
        FINANCIAL STATEMENTS FOR
         FISCAL YEARS 2005 AND 2004

             Audit Report
             OIG-AR-02-06




                            March 31, 2006
      UNITED STATES INTERNATIONAL TRADE COMMISSION
                                 WASHINGTON, DC 20436

March 31, 2006                                                                IG-DD-009



TO:            THE COMMISSION

SUBJECT:       Management letter: Audit of the U.S. International Trade Commission’s
               Financial Statements for Fiscal Years 2005 and 2004 (OIG-AR-02-06)

In am pleased to submit the subject audit report. We conducted this work as part of our
audit of the Commission’s financial statements for fiscal years 2005 and 2004 (OIG-AR-
01-06, November 14, 2005). The financial statements audit did not detect internal
control deficiencies deemed to be reportable conditions or material weaknesses.
However, the Commission needs to improve several internal controls over its operations.

The Commission should strengthen certain internal controls related to accountable
property, the timely deposit of cash receipts, purchases, and employee awards. In
addition, the Commission must abide by all the rules specified by the Federal Managers’
Financial Integrity Act of 1982.

We made five recommendations that will assist the Commission in correcting these
deficiencies. The Commission agreed with our findings and presented actions taken and
planned, which we believe address the intent of our recommendations. We incorporated
the response in the body of this report and included it in detail as Appendix A.

We appreciate the courtesies and cooperation provided to the auditors during this audit.



                                                            Jean Smith
                                                            Acting Inspector General

cc:    Office Directors
       O’Connor & Drew, P.C.
 Management Letter: Audit of the U.S. International Trade Commission’s
 Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

 TABLE OF CONTENTS

 I.       BACKGROUND .................................................................................................... 1

 II.      OBJECTIVES ......................................................................................................... 2

 III.     METHODOLOGY AND SCOPE........................................................................... 2

 IV.      DETAILS OF RESULTS........................................................................................ 3
          A.        STATUS OF PRIOR YEAR AUDIT RECOMMENDATIONS .................................. 3

          B.        OVERSIGHT OF PROPERTY NEEDS IMPROVEMENT ........................................ 4
                    RECOMMENDATION 1................................................................................... 5
                    MANAGEMENT RESPONSE ............................................................................ 5
                    OIG COMMENT ............................................................................................ 5

          C.        PROCEDURE OVER DEPOSITING FUNDS NEEDS IMPROVEMENT .................... 6
                    RECOMMENDATION 2................................................................................... 6
                    MANAGEMENT RESPONSE ............................................................................ 6
                    OIG COMMENT ............................................................................................ 6

          D.        CONTROLS OVER PURCHASE ACTIVITY NEED STRENGTHENING .................. 6
                    RECOMMENDATION 3................................................................................... 9
                    MANAGEMENT RESPONSE ............................................................................ 9
                    OIG COMMENT ............................................................................................ 9

          E.        PROCEDURES TO ENSURE PROPER TAX REPORTING OF EMPLOYEE AWARDS
                    ARE NEEDED................................................................................................ 9
                    RECOMMENDATION 4................................................................................. 10
                    MANAGEMENT RESPONSE .......................................................................... 11
                    OIG COMMENT .......................................................................................... 11

          F.        POLICIES AND PROCEDURES SHOULD INCORPORATE COMPLIANCE WITH THE
                    FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT OF 1982...................... 11
                    RECOMMENDATION 5................................................................................. 12
                    MANAGEMENT RESPONSE .......................................................................... 12
                    OIG COMMENT .......................................................................................... 12
Appendix A – Management’s Response ............................................................................13




                                                                              Office of Inspector General
                                                                                      U.S. International Trade Commission
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

I.      BACKGROUND
With the enactment of the Accountability of Tax Dollars Act of 2002 (Public Law 107-
289, November 7, 2002), the Commission is now required annually to submit to
Congress and the Office of Management and Budget (OMB) audited financial statements.
The financial statements must be prepared in accordance with the policies prescribed in
OMB Bulletin 01-09, Form and Content of Agency Financial Statements.

The annual financial statements of the Commission consisted of the following:

     1. Management discussion and analysis
     2. Basic statements and related notes, which included the following:
           ¾ Balance Sheet
           ¾ Statement of Net Cost
           ¾ Statement of Changes in Net Position
           ¾ Statement of Budgetary Resources
           ¾ Statement of Financing
           ¾ Statement of Custodial Activity

Commission Directive 2102.0, Financial Management System Policies, illustrates the
Commission’s policies and procedures regarding the financial management system. The
Directive assigns general responsibilities for maintaining the financial management
system to the following individuals:

            ¾ The Chairman is responsible for ensuring that the financial management
              system is properly established and maintained.

            ¾ The Director, Office of Administration, is responsible for coordinating the
              overall agency-wide effort of reviewing, improving, and reporting on the
              financial management system.

            ¾ The Director, Office of Administration, and subordinates, are responsible
              for their assigned subsystems. This responsibility includes ensuring that
              the system is established, maintained, reviewed, improved and reported
              upon in accordance with OMB Circular A-127, Management
              Accountability and Control.

            ¾ The Director, Office of Finance, is responsible for providing technical
              assistance and advice for reviewing and improving the Commission’s
              financial management system; performing reviews of the financial
              management system; and advising the Director, Office of Administration,
              as to whether the Commission’s financial management system is in
              accordance with OMB guidelines.



                                                       Office of Inspector General
                                                             U.S. International Trade Commission
                                            1
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

II.      OBJECTIVES
The overall objective is to present findings and recommendations for improvements in
internal control that were identified during the audit of the Commission’s financial
statements and were not required to be included in the auditor’s report.


III.     METHODOLOGY AND SCOPE
We engaged O’Connor & Drew, P.C. to assist in conducting the audit of the financial
statements for the year ended September 30, 2005. The internal control and compliance
phase of the audit was performed during the months of July and August 2005. The
fieldwork relating to the audit of the financial statements occurred during the month of
October 2005.

We reviewed applicable policies and procedures and interviewed Commission employees
to identify and evaluate the Commission’s implementation of recommendations made in
our prior financial system audit titled Management Letter: Audit of the U.S.
International Trade Commission’s Financial Statements for the Year Ended September
30, 2004 (OIG-AR-03-05, dated March 24, 2005), and tested controls over financial data.
We interviewed Commission employees in the Offices of Administration, Finance,
Facilities Management, Human Resources, and Chief Information Officer. Specifically,
we evaluated:

       ¾ Internal control policies and procedures over disbursements. We tested 47
         transactions for:
             • Proper authorization for the disbursement;
             • Compliance with purchase thresholds;
             • Allowable purchases under the Commission’s guidelines;
             • Documentation for transaction;
             • Receipt of the merchandise; and
             • Timely payment of the purchase.

       ¾ Internal control policies and procedures over payroll. We examined 45 payroll
         transactions to determine whether:
             • All required personnel forms were completed;
             • Time and attendance information for selected pay periods agreed with
                 source documents;
             • Payroll for selected pay periods was properly authorized;
             • Voluntary withholdings were properly administered;
             • Compliance with federal guidelines as noted within the Financial Audit
                 Manual (FAM) relating to payroll withholdings; and if
             • Employees existed.


                                                       Office of Inspector General
                                                            U.S. International Trade Commission
                                            2
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06


      ¾ Internal control policies and procedures regarding accountable property items.
        We randomly selected 45 items, and determined whether:
            • Each item was physically present;
            • Property was bar coded;
            • Property Action Form 110 was completed, if applicable; and
            • The Cost Center Manager performed the annual inventory.

      ¾ Policies and procedures over capital property. We evaluated all current year
        additions with the supporting documentation.

      ¾ Internal control policies and procedures over cash reporting and accounts
        receivable. We reviewed a sample of cash related reconciliations and deposits for
        FY 2005.

      ¾ We verified compliance with applicable laws and regulations including
        compliance with the Federal Managers’ Financial Integrity Act (FFMIA) of 1982.

      ¾ Policies and procedures over the Mass Transit Subsidy program. We evaluated
        and tested the accuracy of the monthly payments, and only eligible employees
        participated.

      ¾ Policies and procedures over the Spot Award program. We evaluated and tested
        controls over managing the program.

The review was conducted in accordance with Government Auditing Standards, 2003
Revision, as amended, promulgated by the Comptroller General of the United States; and
OMB Bulletin No. 01-02.



IV.       DETAILS OF RESULTS

          A.       Status of Prior Year Audit Recommendations

          The Commission completed action and effectively implemented two of five
          recommendations made from our September 30, 2004 financial statement audit1.
          The Director of Finance developed procedures to ensure: (1) the correct




1
    Management Letter: Audit of the U.S. International Trade Commission’s Financial Statements for the
    Year Ended September 30, 2004 (OIG-AR-03-05, dated March 24, 2005).


                                                                 Office of Inspector General
                                                                        U.S. International Trade Commission
                                                    3
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

           calculation of depreciation expense is recorded for each asset during the year and
           (2) liabilities presented to Finance2 were recorded as accurately as possible.

           For two recommendations, the Commission was in the process of: (1) developing
           procedures to strengthen controls over fixed assets and accountable property and
           (2) performing and reporting to the President and the Congress the results of its
           annual self evaluation of internal and administrative controls. For the remaining
           recommendation, the Director of Finance prescribed the length of time funds may
           remain in the Commission’s custody based on dollar amount, but it was not
           always followed.

           While the Commission reasonably and fairly stated the FY 2005 financial
           transactions, there is room for improvements in any system and strengthening
           controls should be an objective of any agency providing improvements are cost
           effective. Further discussion on the above three open recommendations is
           provided in the remaining sections of this report. Also discussed in this report is
           the need to strengthen controls over procurement activity and develop procedures
           for an employee awards program to ensure the proper treatment of federal and
           state taxes.



           B.       Oversight of Property Needs Improvement

           The Office of Information Technology Services (ITS) did not maintain an
           accurate automated data processing (ADP) inventory list because responsible
           officials did not complete a Property Action Form 110. Form 110 is used to
           record the location of the transferred equipment and update the inventory list.
           While all ADP items were eventually located, failure to implement the required
           controls increases the risk of misstated financial records and the undetected loss
           of assets.

           Commission Directive 3550.3, Property Management, states that the Director,
           Office of Facilities Management, is responsible for overall supervision and
           technical direction of the property management system, including disposition of
           property and the resolution of missing items. The Office of Facilities
           Management maintains a master property list of fixed assets and all accountable
           property other than ADP equipment. The Commission defined accountable
           property as sensitive and/or subject to potential theft—ADP equipment,
           televisions, video recorders, and cameras—and designated the ITS Director as the
           Accountable Officer for ADP equipment. This Accountable Officer is

2
    Subsequent to our field work, it came to the OIG’s attention that not all liabilities were timely presented
    to Finance. We did not review the items. However, implementation of this report’s recommendation 3
    to strengthen management over procurement activity should correct the problem.


                                                                     Office of Inspector General
                                                                             U.S. International Trade Commission
                                                        4
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

           responsible for maintaining the master ADP property list and providing the list to
           the Office of Facilities Management. Furthermore, ITS must conduct an annual
           physical ADP inventory and report the results to the Office of Facilities
           Management.

           The location of 5 of 45 randomly selected items from ITS’ master ADP property
           list could not be readily identified. Though all five were ultimately found, an ITS
           official had to perform a time consuming search because a Form 110 was not
           completed for these items. An ITS official located four items by manually
           scrolling through the ADP property database. For the remaining item, the official
           found its location by using another source to identify the location where the most
           recent log-in occurred.

           We reported this problem in our prior two audits3, but inaccurate ADP inventory
           records persisted. The ITS and Finance Directors report the Director, Office of
           Administration and were working to correct the problem. The ITS Director took
           corrective action by creating and implementing an ADP inventory database, but
           the Property Management Directive was not revised to provide guidance and
           assign responsibility for controlling all types of accountable property. The
           Director of Finance drafted the guidance and was working towards finalizing it.


           Recommendation 1
           The Director, Office of Administration should ensure an Administrative Notice is
           issued which provides guidance for controlling both fixed assets and accountable
           property. This guidance should clarify procedures and assign responsibilities for
           controlling all types of assets. The guidance should also address the
           responsibilities associated with the operation of the ADP inventory database.


           Management Response
           The Commission concurred with the recommendation. The Director of
           Administration will issue guidance on procedures and responsibilities for
           controlling fixed assets and accountable property. This guidance will clarify
           maintenance of the inventory on the information technology database.
           Completion date: June 30, 2006


           OIG Comment
           When accomplished, the above action will satisfy this recommendation.

3
    Management Letter: Audit of the U.S. International Trade Commission’s Financial Statements for the
     Year Ended September 30, 2004 (OIG-AR-03-05, dated March 24, 2005) and
    Audit of the U.S. International Trade Commission’s Financial Management System Controls (OIG-AR-
     02-03, dated July 24, 2003)


                                                                 Office of Inspector General
                                                                       U.S. International Trade Commission
                                                     5
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06



      C.     Procedure over Depositing Funds Needs Improvement

      Although the Director, Office of Finance issued desk procedures for processing
      deposits, funds were not always deposited within the established timeframe. A
      review of deposits made subsequent to the new procedures disclosed funds
      totaling $3,586 and $1,737 deposited 28 and 10 days, respectively, beyond the
      prescribed time-period. This delay occurred because the designated official
      responsible for depositing funds was on vacation, and the Director of Finance had
      not identified an alternate individual to serve as a back-up. A delay in making
      deposits increases the risk of theft and the risk of material misstatements.

      In response to the recommendation made from our FY 2004 audit, the Director,
      Office of Finance issued procedures in June 2005 on the length of time funds may
      remain in the Commission’s custody. The procedure directed the deposit of funds
      once every month, and if the amount on hand exceeds $1,000 then it will be
      deposited by the end of the week.


      Recommendation 2
      The Director, Office of Finance should designate an alternate person to serve as
      back-up in the event the primary person responsible for depositing funds within
      the established time-frames is unavailable.


      Management Response
      The Commission concurred with the recommendation. The Director of Finance
      has assigned two additional accounting technicians as backup to the primary
      person responsible for depositing funds. They have been instructed as to cash
      deposit procedures. Completed: February 28, 2006

      OIG Comment
      The above actions satisfy this recommendation.



      D.     Controls over Purchase Activity Need Strengthening

      The financial reporting of obligations was not always accurate and a purchase
      exceeded the authorized limit. Furthermore, management did not have an
      accurate record of procurement activity. These problems occurred because
      designated officials did not always forward the procurement request to the Office
      of Facilities Management (OFM) for entry into the Commission’s procurement

                                                       Office of Inspector General
                                                           U.S. International Trade Commission
                                          6
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

           system—PRISM. Also, designated officials did not always enter purchases made
           against a Blanket Purchase Agreement4 in the BPA Database. Finally, not all cost
           center managers (CCM) reviewed the monthly accounting reports issued by the
           Office of Finance.

           Commission Directive 3601.2, Procurement Policy, states that each CCM will be
           assigned a unique portion(s) of the ITC budget by budget object classification(s)
           within their area of responsibility. CCM duties include:

                 •       Certify availability of funds.
                 •       Tracking requisitions, awards and receipts.
                 •       Authorizing payment for completed transactions.
                 •       Reconciling CCM tracking data with the Office of Finance Expenditures
                         Reports.

           The Senior Procurement Executive, who is also the Director, Office of
           Administration, is responsible for the management direction of the Commission’s
           procurement system, including implementation of the unique procurement
           policies, regulations, and standards of the Commission. The Commission uses
           several systems to record purchase activity:

                     •     PRISM—Used by the Contract Specialists, in OFM, and Purchase
                           Card Holders for recording procurement and purchase card activity.
                           OFM, under the Office of Administration, is responsible for managing
                           PRISM. Subsequent to our fieldwork, OFM made PRISM data
                           available for review on the intranet file Procurement Requisition Log.
                     •     Blanket Purchase Agreement Database—Used by the authorized
                           purchaser(s) and CCM for recording all purchases made against a
                           BPA, and managed by the Office of the Chief Information Officer.
                     •     FedTraveler—Used by individuals authorized to travel for the
                           Commission for recording travel plans and expenses, and managed by
                           the Office of Operations.

           Using a list of disbursements made throughout the fiscal year ending September
           30, 2005, we selected a sample of 47 items to trace from the request of the
           purchase to the payment made by the Office of Finance. The sample included 27
           transactions from purchase cards and 2 transactions on an Interagency
           Agreement; 8 transactions on blanket purchase agreements (BPA); and 5
           transactions on both travel credit cards and expense reports. Since the
           Commission had processing procedures based on the type of procurement
           activity, our findings on each sampled activity is presented below.

4
    A BPA is a simplified method of filling anticipated repetitive needs for supplies or services by
    establishing "charge accounts" with qualified sources.


                                                                    Office of Inspector General
                                                                            U.S. International Trade Commission
                                                       7
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06


      Interagency Agreement
      OFM did not record an Interagency Agreement totaling $250,000 in PRISM, and
      the Office of Finance did not obligate funds for the Agreement. These problems
      occurred because the CCM did not forward the requisition to OFM for
      processing. Failure to forward requisitions to OFM causes the Commission to
      have an inaccurate record of procurement activity and unrecorded liabilities.
      Under this Agreement, the Office of Finance established the liability upon receipt
      of invoices and made two payments totaling $118,000.

      Procedures for obtaining services with an Interagency Agreement include:

            •   The CCM supplies an approved Form 51, Requisition for Equipment of
                Services to OFM.
            •   A Contract Specialist in OFM enters the total dollar amount of the
                Agreement’s requisition in PRISM and an Interagency Agreement order
                is created.
            •   OFM forwards a copy of the Form 51 and the Interagency Agreement
                order to the Office of Finance.
            •   Office of Finance establishes the liability by obligating the funds when
                the contract is entered into. Payment is made automatically through an
                interagency transfer.

      Purchase Card
      All 27 purchase card transactions were: accurately posted in PRISM, timely
      obligated, and paid.

      The Purchase Card Holder is responsible to:
           • process an approved Form 51 in PRISM which records the purchase
               activity and generates a Form 347, Order for Supplies and Services and
           • forward Forms 51 and 347 to the Office of Finance

      The Office of Finance will then establish the liability by obligating the funds and
      pay the vendor upon receipt of an approved invoice.

      Blanket Purchase Agreement
      All eight randomly selected blanket purchase agreements were correctly posted in
      PRISM with a zero dollar amount, but five transactions against eight BPAs were
      not posted on BPA’s subsidiary log. Consequently, the Office of Finance did not
      obligate funds for the five transactions totaling $3,800. Furthermore, transactions
      exceeded the allowable limit on one BPA by $70.

      For BPAs, the CCM is responsible to forward to OFM an approved Form 51,
      which shows the total dollar amount/limit and individuals authorized to purchase


                                                      Office of Inspector General
                                                            U.S. International Trade Commission
                                           8
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

      under the BPA. OFM will enter the BPA into PRISM with a zero dollar amount.
      When a purchase is made off the BPA, either the CCM or the authorized
      purchaser will enter the cost into the Blanket Purchase Agreement (BPA)
      Database located on the ITC intranet. Periodically, the Office of Finance will
      review the BPA Database to identify transactions requiring obligations.

      Travel
      All expenditures from travel credit cards and travel expense reports were
      accurately entered into the Commission’s FedTraveler and the Federal Financial
      Systems. Because these systems are not interconnected, the Office of Finance
      obtains a report from FedTraveler and enters the appropriate data into the Federal
      Financial System.


      Recommendation 3
      The Director, Office of Administration should formally remind CCMs of their
      financial responsibility to ensure procurements are properly recorded and do not
      exceed the allowable limit. Furthermore, the Director, Office of Administration
      should issue procedures requiring CCMs to verify their requested action was: (a)
      accurately entered into the Commission’s procurement records by reviewing
      OFM’s Procurement Requisition Log for items posted in PRISM and the Blanket
      Purchase Agreement (BPA) Database; and (2) obligated by reviewing the
      monthly accounting reports and providing feedback on its accuracy to the Office
      of Finance.


      Management Response
      The Commission concurred with the recommendation. The Director of
      Administration will issue a notice to remind Cost Center Managers of their
      financial responsibility to ensure procurement actions are properly recorded and
      do not exceed the allowable limit. The Director of Administration will also issue
      procedures requiring CCMs to review procurement and financial records monthly
      to ensure their accuracy. Completion date: June 30, 2006


      OIG Comment
      When accomplished, the above actions will satisfy this recommendation.



      E.     Procedures to Ensure Proper Tax Reporting of Employee Awards Are
             Needed




                                                     Office of Inspector General
                                                           U.S. International Trade Commission
                                           9
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

      The Commission did not process gift certificates awarded to employees as a
      supplemental wage because the Director, Office of Human Resources considered
      gift certificates awarded below the $400 aggregate threshold to be an excludable
      item. However, IRS Publication 15–B, Employer’s Tax Guide to Fringe Benefits
      states exclusion of the awarded amount does not apply to awards of cash, cash
      equivalents, and gift certificates. The face value of a gift certificate should be
      included in the employee’s wages, subject to income tax withholding and payroll
      taxes. In calendar year 2004, the Commission presented 110 gift certificates, each
      valued at $100, to 82 employees. Presented below is IRS’ guidance on awards.

           You can exclude from income employee achievement awards you receive
           if your employer can deduct them. To be deducted by your employer, and
           excluded by you, the awards must meet ALL the following requirements:
                  1. Be given for length of service or safety achievement.
                  2. Be tangible personal property, other than cash, gift certificates
                     or equivalent items.
                  3. Be given under conditions and circumstances that do not create
                     a significant likelihood of the payment of disguised
                     compensation.
                  4. Be given as part of a meaningful presentation.
                  5. Be no more than the specified dollar limits.
           However, the exclusion does not apply to the following awards:

                  •    A length-of-service award if you received it for less than 5
                       years of service or if you received another length-of-service
                       award during the year or the previous 4 years; or

                  •    A safety achievement award if you are a manager, administrator,
                       clerical employee, or other professional employee or if more
                       than 10% of eligible employees previously received safety
                       achievement awards during the year.
           There are limits on the total awards you may exclude in one year. These
           limits are provided in Publication 525, Taxable and Nontaxable Income.
                      Source: http://www.irs.gov/individuals/article/0,,id=139543,00.html


      Recommendation 4




                                                          Office of Inspector General
                                                                U.S. International Trade Commission
                                             10
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

      The Director, Office of Human Resources should develop procedures for
      processing and controlling employee awards to ensure proper treatment of federal
      and state taxes.


      Management Response
      The Commission concurred with the recommendation. The Office of Human
      Resources will provide the Office of Finance a memorandum containing the
      required information when an employee receives a taxable award. This
      memorandum will be faxed to payroll operations at the National Business Center
      to include the award as taxable wages and withhold the appropriate payroll taxes.
      The Office of Finance will issue guidelines on reconciling with the Office of
      Human Resources on a quarterly basis to assure that all taxable awards are added
      to employee’s payroll records. Completion date: March 31, 2006


      OIG Comment
      The above actions satisfy this recommendation.



      F.     Policies and Procedures Should Incorporate Compliance with
             the Federal Managers’ Financial Integrity Act of 1982

      While the Commission substantially complied with the requirements of the
      Federal Managers’ Financial Integrity Act of 1982 (FMFIA/Act), the Commission
      did not have a formal process to ensure its managers annually evaluated and
      reported on the adequacy of their assigned programs. The federal government
      established FMFIA to require ongoing evaluations and reports of the adequacy of
      the systems of internal accounting and administrative control of each executive
      agency. The Act requires that internal and administrative controls be established
      in accordance with standards prescribed by the Comptroller General and shall
      provide reasonable assurance that:

                 •   Obligations and costs are in compliance with applicable law;
                 •   Funds, property and other assets are safeguarded against waste,
                     loss, unauthorized use or misappropriation; and
                 •   Revenues and expenditures applicable to agency operations are
                     properly recorded and accounted for to permit the preparation of
                     accounts and reliable financial and statistical reports and to
                     maintain accountability over the assets.




                                                       Office of Inspector General
                                                           U.S. International Trade Commission
                                          11
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06

      Although we agree that all of the above has been followed by the Commission,
      the Act also requires that by December 31 of each year, the head of each
      executive agency shall, on the basis of an evaluation conducted in accordance
      with guidelines prescribed, prepare a statement to the President and the Congress
      that the agency’s systems of internal accounting and administrative control
      complies with the Act. The respective statement must be signed by the head of
      each executive agency and transmitted.

      The agency head’s evaluation can be performed using a variety of information
      sources. Management has primary responsibility for monitoring and assessing
      controls, and should use other sources such as OIG reports as a supplement to, but
      not a replacement for, its own judgment.


      Recommendation 5

      The Director, Office of Administration should develop procedures and obtain
      appropriate approval for prompt issuance for management to perform its own self-
      study evaluation of its internal and administrative controls annually. The
      procedures should also provide guidance on providing the Chairman with the
      results of the study in order to support the Chairman’s annual statement to the
      President and the Congress on the adequacy of the Commission’s systems of
      internal accounting and administrative control.


      Management Response
      The Commission concurred with the recommendation. The Director of
      Administration will submit a Management Control Plan (MCP) to the Chairman
      for approval. The MCP will identify assessable units and address the use of
      internal control reviews, schedule risk assessments, and remedial measures to be
      taken, if any. The MCP will provide the necessary support for Chairman to
      prepare the annual statement of assurance required by the Federal Manager’s
      Financial Integrity Act. Completion date: September 30, 2006


      OIG Comment
      Based on the Director of Administration’s further clarification on the above
      actions, the Commission will perform internal control reviews in sufficient time
      to provide benefit to the fiscal year 2006 financial statement process. Therefore,
      these actions will satisfy this recommendation.




                                                      Office of Inspector General
                                                            U.S. International Trade Commission
                                          12
                                                                              Appendix A
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06




                                                  Office of Inspector General
                                                       U.S. International Trade Commission
                                       13
                                                                              Appendix A
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06




                                                  Office of Inspector General
                                                       U.S. International Trade Commission
                                       14
                                                                              Appendix A
Management Letter: Audit of the U.S. International Trade Commission’s
Financial Statements for Fiscal Years 2005 and 2004                   OIG-AR-02-06




                                                  Office of Inspector General
                                                       U.S. International Trade Commission
                                       15
